                                                                                                'I
                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL                   I

                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM                                  11




Case Number: I03090041                                                                       Page 1 of 1



         An internal review of the Government Travel Credit Card Program by the National Science
         Foundation @SF) Office of Inspector General (OIG) revealed the possibility of unauthdrized use
         of the government travel card.

                                             '
         A review of the subject employee's travel card statement transaction reports, during the period
         2002 and 2003, reflected multiple cash withdrawals totaling in excess of $1,500 dollars.llThe
         employee advised that all advances were paid at the next billing cycle.
                                                                                                      i

         During OIG's interview of the subject employee, she acknowledged unauthorized use of,the
         travel card, stating that she made the cash withdrawals to pay personal expenses, to include
         emergency car repairs.

         NSFIOIG referred this case to the United States Attorney's Office, Eastern District of Vsginia
         who declined prosecution in lieu of agency administrative action.

         OIG's referral to NSF, resulted in the subject employee receiving an Official Reprimand, !which
         will be placed in the employee's Official Personnel Folder for a period not to exceed three years.
         In the letter of Official Reprimand, NSF's deciding official characterized the subject employee's
         sworn statement to the OIG as unpersuasive and conveying a dismissive tone that lacked regret
         for the inappropriate actions. The official reprimand is attached and constitutes part of this
                                                                                                          I
         closeout document.

         Accordingly, this.case is closed




          ' Footnote Redacted

NSF OIG Fonn 2 (1 1/02)                                                                                       II
    This purpose of t k s memorandum is to issue an official reprimand for your misuse oflthe
    Government Travel Credit Card. The specifics and details of this misconduct are described
    below.

,                        the Office of the Inspector General (OIG) issued the results of their
    ~nvestigationinto G~vernment~Travel      Credit Card misuse. In it, a detailed review was
    conducted on the activity of your account. The review showed multiple ATM withdrawals,
    and a charge to your travel card, made during times when you were not on official travel.
    Therefore, your use of the card on these occasions was unauthorized. The government
    travel card is only for appropriate business use while on official travel. The cash withdrawals
    and charges, totaling $1,587.81, are detailed below:                                    I\




    05/25/02        $200.00       ATM cash withdrawal
                    $3.80         ATM cash advance fee           ',
                                  Mail Boxes Etc.

                                  ATM cash withdrawal
                                  ATM cash advance fee

                                  A'rM cash withdrawal
                                  ATM cash advance fee

                    $200.00       ATM cash withdrawal
                    $3.80         ATM cash advance fee

                    $201.75       ATM cash withdrawal
                    $3.84         ATM cash advance fee

    12/23/02        $200.00       ATM cash withdrawal
                    $3.80         ATM cash advance fee

    03/06/03        $100.00       ATM cash withdrawal
                    $1.90         ATM cash advance fee
                /


    05/28/03        $130.00       ATM cash withdrawal                                            I


                    $2.47         ATM cash advance fee
                                               

                                                                                                                                                                   ,
                                                                                                                                                                            




                                                                                                                                                                    ,




                                                                                                                                                                  




                                                                                                                                                                     M


                                                                                                                            a                                      
                                                                                                                                                                                                   
                                                                                                                                                                                                               
                                                                                                                                                                                                                     




                                            P
                                                                                         $70FDVKDGYDQFHIHH

                                                                                                                                                                                                                            
                                                                                  


      
,
                                       
                         \RXLXEPLWWHGDQDIILGDYLWWRWKH2,*LQZKLFK\RXVWDWHG8OJW\RXREWDLQHGUL7L                                                                     

,
                                                  FDVKDGYDQFHVZLWKWKHFDUGWRFRYHUH[SHQVHVUHODWHGWRLQWRZQVLWHYLIVDQGDWWHQEDULFH 
3a                                                                

                          
                                                   DWORFDOFRQIHUHQFHVDQGV\PSRVLDWKDWRFFXUUHGLQWKHZLQWHUDQGV S U L Q J DQG    WKHIDOO            
                                                                                                                                                                                                                          D  




,                                                        ,QDGGLWLRQ\RXVWDWHG\RXDOVRXVHGWKHFDUGRQDSSUR[LPDWHO\WZRRFFDVLRQVWR   
                                               FRYHUHPHUJHQF\DXWRH[SHQVHVVWDWLQJP\FDULVLPSHUDWLYHWRPH
JHKLQJW RZRUN
aaRX 
                                            VWDWHGWKDW\RX,ZD\VPDGHLPPHGLDWHSD\PHQWRQWLPHRQWKHIROORZLQJELOOLQJ
                                                                                                                   
                                                                                                                                       F\FOHWR
                                             W K H %DQN            
                                                                                                                               
,                                                                                                             


                                                 ,QUHYLHZLQJWKLVVLWXDWLRQ,FRQVLGHUHGWKDWZKHQ\RXZHUHILUVWLVVXHG\RXU*RYHUQPHQW
                                                 7UDYHO&DUGWKHDJUHHPHQW\RXVLJQHGVSHFLILHGWKDW\RXZRXOGXVHWKHWUDYHOFDUGIRUE
                                                 RILFLDOWUDYHODQGRIILFLDOWUDYHOUHODWHGH[SHQVHVRQO\ ,QDGGLWLRQ ,ILQG\RXUDIILGDYLW
                                                 VWDWHPHQWXQSHUVXDVLYHDVLWFRQYH\HGDUDWKHUGLVPLVVLYHWRQHWKDWODFNHGUHJUHWRU
                                                 DFFHSWDQFHWKDW\RXUDFWLRQVZHUHLQDSSURSULDWH 7KLVLVHVSHFLDOO\WURXEOLQJJLYHQWKHO
IDFW
                                                 WKDW\RXDUHDVHQLRUOHYHOHPSOR\HHDQG                    $VVXFK\RXVHWWKHH[DPSOHIRU
                                                 \RXUHPSOR\HHVDQG\RXDUHKHOGWRDKLJKHUVWDQGDUGRIFRQGXFW ,DOVRQRWHWKDWFRQWUDU\
                                                 WR\RXUDVVHUWLRQWKDW\RXDOZD\VPDGHRQWLPHLPPHGLDWHSD\PHQWVWKHODVW,QGLYLGXDO
                                                 6WDWHPHQWUHIOHFWV                  WKDWWKHUHZHUHLQIDG SD\PHQWVWKDW\RXGLGQRWPDNH
                                                 RQWLPH                                                                                                                      E




                                                 7KLVW\SHRIPLVFRUUGXFWLVVHULRXVUHIOHFWVSRRUO\RQWKHRIILFHDQGZLOOQRWEHWROHUDWHG $V
                                                 UHSUHVHQWDWLYHVRIWKH16)ZHDUHUHVSRQVLEOHIRUPHHWLQJRXUILQDQFLDOREOLJDWLRQVDWDOO
                                                 WLPHVDVZHOODVWKHSURSHUXVHRIJRYHUQPHQWSURSHUW\ 7KHUHIRUHWKLVDFWLRQLVEHLQJWDNHQ
                                                 WRVWUHVVVXSRQ \RXWKHLPSRUWDQFHRIDGKHULQJWRIHGHUDOUHJXODWLRQV16)SROLF\DQG 
                                                 PLQLPXPVWDQGDUGVRIFRQGXFW,PXVWZDUQ\RXWKDWVLPLODUEHKDYLRURQ\RXUSDUWLQWKH
                                                 IXWXUHZLOOEHJURXQGVIRUPRUHVHULRXVGLVFLSOLQDU\PHDVXUHV

                                                 $FRS\RIWKLVUHSULPDQGZLOOEHSODFHGLQ\RXU2IILFLDO3HUVRQQHO)ROGHUIRUDSHULRGQRWW 
 
 
                                                 H[FHHGWKUHH\HDUVXQOHVV,GHFLGHWRUHPRYHLWDIWHURQH\HDULI,EHOLHYHLWKDVVHUYHGLWV
                                                 LQWHQGHGSXUSRVH

                                                 <RXKDYHWKHULJKWWRILOHDJULHYDQFHLQDFFRUGDQFHZLWKWKH$GPLQLVWUDWLYH*ULHYDQFH
                                                 3URFHVV)RUIXUWKHU
LQIRUPDWLRQRULI\RXKDYHDQ\TXHVWLRQVUHJDUGLQJ\RXUULJKWVRUWKH
                                                 SURFHGXUHVXVHGLQWKLVPDWWHU\RXPD\FRQWDFW                (PSOR\HH5HODWLRQV
                                                 6SHFLDOLVWLQWKH'LYLVLRQRI +XPDQ5HVRXUFH0DQDJHPHQW
